-5934

Supreme Court, U.S.
FILED

SEP 0 9 2020

No.
OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

THOMAS HQUDEN - PETITIONER
vs.
SHERRY BURT - RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNTTFD - STATES COURT OF APPEAllS FOR THE SIXTH CIRCUIT
(NAME OF THE COURT THAT CAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
RECEIVED
Thoias Holden #457885
In Properis Persona .
Muskegon Correctional Facility
2400 S. Sheridan Drive
Muskegon, Mich 49442

OCT - 6 2020
suprImeFcourtLu!sK

RECEIVED
SEP 16 wn

STATEMENT OF QUESTIONS PRESENTED
II,
WHETHER A UNITED STATES COURT, OF APPEALS HAS DECIDED AN
IMPORTANT QUESTION OF FEDERAL LAW THAT CONFLICTS WITH
RELEVANT DECISIONS OF THIS COURT, WHERE THE TRIAL COURT
MISCORED OV-6 AT FIFTY POINTS, WHERE THE RECORD FAILS TO
DISCLOSE ANY PREMEDITATED INTENT TO KILL?
III.
WHETHER THE SIXTH CIRCUIT COURT OF APPEALS HAS DECIDED AN
IMPORTANT FEDERAL QUESTION IN A WAY THAT CONFLICTS WITH
RELEVANT DECISIONS OF THIS COURT, AND SANCTIONED SUCH A
DEPARTURE BY A LOWER COURT WHERE, THE TRIAL COURT FAILURE TO
ADDRESS THE QUESTION OF WHETHER THERE WAS A DENIAL OF RIGHT
TO CHOICE OF COUNSEL AND THAT COUNSEL WAS INEFFECTIVE FOR
FAILURE TO RECUSE HIMSELF AFTER KNOWLEDGE THAT COUNSEL HAD
BEEN RETAINED FOR TRIAL. U.S. CONST. AMS VI, XIV?
IV,
WHETHER THE SIXTH CIRCUIT DECISION IS OBJECTIVELY
UNREASONABLE, CONFLICTS WITH STRICKLAND CAUSE AND PREJUDICE
TWO-PART INQUIRY, WHERE APPELLATE COUNSEL FAILURE TO RAISE
INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL'S NONDISCLOSURE OF
FAVORABLE PLEA OFFER WITHOUT THE DEFENDANT'S CONSENT
CONTRARY TO THE HOLDINGS IN LAFLER v. COOPER, 132 S.CT 1376
(2012) AND MISSOURI V. FRY, 132 S.CT 1399?

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the case whose judgment is the
subject of this petition is as follows:

TABLE OF CONTENTS

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

1.
2.
3.
4.
11.
28.

INDEX OF APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F
APPENDIX G

- Sixth Circuit Court of Appeals June 2, 2020 decision
- United States District Court's November 4, 2019 decision
- Michigan Supreme Court's July 30, 2013 decision
- Michigan Court of Appeals March 21, 2013 decision
- Michigan Supreme Court January 31, 2017 Postconviction decision
- Michigan Court of Appeals July 6, 2016 Postconviction decision
- Trial Court's March 25 , 2015 Postconviction decision

CASES

INDEX OF AUTHORITIES

PAGE

Abela v. Martin, 380 F.3d 915, 922-24 (6th Cir. 2004)

26

Alleyne v. United States, 133 S.Ct 2151 (2015)
Anderson v. Treat, 172 U.S. 24; 19 S.Ct 67; 43 Li.Ed. 351 (1898)

12
16

Apprendi v. New Jersey, 530 U.S. 466, 477 (2000)
Beasley v. United States, 491 F.2d 687 (CA 6, 1974)
Brawn v. Foltz, 763 F.2d 191, 195 (6th Cir. 1985)
Caver v. Straub, 349 F.3d 340, 348 (6th Cir. 2003)
Cockrell v. Miller-El, 537 U.S. at 327 (2000)
Cunninghan v. California, 543 U.S. 220, 233-35 (2005)

12, 14
21
21
17, 18
13, 18, 26
14

Evitts v. liucey, 469 U.S. 387, 396-97 (1985)
Guilmette v. Howes, 624 F.3d 286, 291 (6th Cir. 2010)(en banc).
Guilmette v. Howes, No. 2256, October 21,2010 _
(Recormiended For Full Text Publication)
Holden v. Winn, 2016 U.S. Dist. LEXIS 9998 (E.D. Mich, Jan. 28, 2016)
Howard v. White, 76 F.App'x 52, 53 (6th Cir. 2003)

21
25

Jones v. Barnes, 463 U.S. 745, 751-52 (1983)
Lafler v. Cooper, 132 S.Ct 1376 (2012)
Matthews v. Abramajyts, 92 F.Supp.2d 615, 631 (E.D. Mich. 2000)

17

Missouri v. Fry, 132 S.Ct 1399 (2012)
Murray v. Carrier, 477 U.S. 478. 488; 106 S.Ct 2639
91 L.Ed.2d 397 (1986)
People v. Allen, NO. 249788 , 2005 Wl_ 1106498,
at *1 Mich. Ct. App. May 10, 2005)
People v. Francisco, 474 Mich at 89-92
People v. Holden, Docket No. 308164, March 21, 2013
People v. Holden, 889 N.W.2d 265 (Mich. 2017)(mem)
People v. Reed, 449 Mich 375 (1995)
People v. Walker, 2020 Mich. LEXIS 886, May 8, 2020

26
11
19
7, 2
24
7, 20
21, 24
25
10
6
21
21

(On Reoomd), 328 Mich App 429; 938 NW2d 31 (2019)
Powell v. Alabama, 278 U.S. 45; 53 S.Ct 55 (1932)
Ratlif v. United States, 999 F.2d 1023, 1026 (6th Cir. 1993)
Shanaberger v. Jones, 615 F.3d 448, 452 (6th Cir. 2010)
Smith v. Murray, 477 U.S. 527, 536 (1986)
Smith v. Robbins, 528 U.S. 259, 288 (2000)
Stewart v. Erwin, 503 F.3d 488, 495 (6th Cir. 2007)

22
16, 17
24
26
17
8
11

passim
Strickland v. Washington, 466 U.S. 668 (1984)
Towsand v. Burke, 334 U.S. 736; 68 S.Ct 1252; 92 l.Ed.2d 1690 (1948) 9, 10, 11
United States v. Cronic, 466 U.S. 648; 104 S.Ct 2039; 80 L.Ed.2d 657 (1984) 23
19
United States v. Gonzales-Lopez, 548 U.S. 140 (2006)
10
United States v. Tucker, 404 U.S. 443, 447 (1972)
23
Van v. Jones, 475 F.3d 292, 305 (6th Cir. 2007)
Wheat v. United States, 486 U.S. 159; 108 S.Ct 1692; 100 L.Ed.2d 140 (1988) 16
19
Wilson v. Corcoran, 562 U.S. 1, 5 (2010)
STATUTES
18 U.S.C. 1951(a)
MCL 750.83
MCL 750.224f
MCL 750.227b
MCL 769.34(a)
MCL 777.36(1)(a)
MCL 777.36(2)(a)
MCL 777.62
MCR 6.508(D)

12
4
4
4
14
9, 12, 13
9, 12
10
21, 24, 25

4

CONSTITUTIONS

Mich. Const. 1963, Art 1 § 20
United States Sixth Amendment
United States Fourteenth Amendment

21
3, 7, 12, 14, 15, 16, 21, 24
3, 7, 12, 14, 15

a

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
[X] For cases from Federal courts:
The opinion of the United States Court of Appeals appears at Appendix A to
the petition and is
[ ] reported at
■ : or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B to
the petition and is
[ 1 reported at ______; or,
[ ] has been designated for publication but is not yet reported; or,
[X[ is unpublished.
[ ] For cases from state courts:

The opinion of the highest state court to review the merits appears at
Appendix C to the petition and is
[ 1 reported at _____
• - -: or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the Michigan Court of Appeals appears at Appendix D to the
petition and is
! reported at
: or,
! has been designated for publication but is not yet reported; or,
:x] is unpublished.

1.

JURISDICTION

[X] For cases from Federal courts:
The date on which the United States Court of Appeals decided my case was
June 2, 2020.
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court
of Appeals on the following date: - - ■ ■
■. • • ■. and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for writ of certiorari was
granted to and including _ (date) on _____ (date) in Application No.
A *•
The Jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
[ 1 For cases from state courts:
The date on which the highest state court decided my case was

.......... 9

A copy of that decision appears at Appendix ___
[ ] A timely petition for rehearing was thereafter denied on the following
date: • . and a copy of the order denying rehearing appears at
Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including ___ (date) on __(date) in Application No.
A
Jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

UNITED STATES SIXTH AMENDMENT
The Sixth Amendment of the U.S. Constitution includes such
rights as the right to speedy and public trial by an
impartial jury, to be informed of the nature of the
accusation, the right to confront witnesses, the right to
assistance of counsel and compulsory process.
UNITED STATES FOURTEENTH AMENDMENT
The Fourteenth Amendment of the Constitution of the United
States, ratified in 1868, creates or at least recognizes for
the first time a citizenship of the United States, as
distinct from that of the states; forbids the making or
enforcement by any state of any law abridging the privileges
and immunities of citizens of the United States; and secures
all "persons" against any state action which results in
either deprivation of life, liberty, or property without due
process of law, or, in denial of tne equal protection of the
laws.

3.

STATEMENT OF THE CASE

Overview
Trial took place on December 9, 2011, Mr. Holden was found guilty by a
jury of assault with intent to commit murder, MCI. 750.83, felon in possession
of a firearm, MCli 750.224f, and possession of a firearm during the commission
of a felony, second offense, MCI: 750.227b before the Honorable James A.
Callahan, 3rd Judicial Circuit Court Wayne County.
December 22 , 2011, the trial court sentenced the petitioner to 20 to 30
years in prison for assault with intent to murder, to be served consecutively
with a prison term of 10 to 20 years for felony-in-possession and consecutively
to a five-year term for second-offense felony firearm. (ST 14-15).
On September 1, 2011 at the AOI defense counsel waived the formal reading
of the charges in the case and stood mute. (AOI pp 2-3). The Court thereafter
entered a plea of not guilty on behalf of the defendant (AOI *3). Attorney
Cook notified the Court that • • • my understanding is they haven't made any
offers. And [obviously] my client is not interested in a plea on this,
certainly not the main charge.
The Court noted: "[Wlell. I don't know why you say obviously. I mean,
he is on probation to this Court for two matters."
Holden contends that the Court corrected counsel that there was no
obvious intent of declining by defendant. (3). See AOI Transcript.
On NoveTber 21, 2011, during Final Conference the Court asked if any
offers were made by the People. (FC *10). The following disclosure occurred:
• i

MS. GRAHAM: Yes. Your Honor. The offer as it stands is the defendant can pled
guilty to Count 1, assault with intent to murder, and Count 4 felony firearm,
and the People will dismiss Count 2, Count 3, and the Habitual 4th Offender
Notice.
THE COURT. Okay.
4.

MR. COOK: Count 2 and 3 are the sane, are the underlying charges for the
assault with intent to murder, Your Honor.
THE COURT: Okay, well —
MR. COOK: Basically it's to get rid of the Habitual.
THE COURT: Well, that's MR. COOK: I will go and see if they have a better offer.
THE COURT: Sure.
MR. COOK: We've gotten past this point.
THE COURT: All right, then if not, if there's not a resolution, we'll see
ever ybody bac k here at the date and time set for trial, which is December 8th.
Thank you.
(FC at 10-11).
The record supports counsel declined a plea without consent of the
defendant aid counsel did not attend to this matter before trial. Matter of
fact, counsel did not secure any numbers to which the defendant could make a
rational decision to accept or decline a plea. This Court can take notice that
defendant's PTV's were extremely high, which was the basis for calculating any
plea determination. The PRV's on the AWIM were assessed at 77 points and PRV
Level F. Succinctly, the OV's total was 90 OV Level V. Defendant's ending
Guideline Scoring was 225 to 750 months under the Habitual 4th.
The case involves the shooting of the petitioner's step-father, Dwight
McCree, on April 13, 2011. (JT-104). Dwight, who had a rocky relationship with
the petitioner accused him of shooting him in the shoulder from the front
porch. (JT-I 82, 103). The petitioner, on the other hand, denied this
accusation. He noticed that he had suffered an injury to his right shoulder
before the incident, which inhibited the use of his hand and hindered him from
lifting heavy objects like a gun. (JT-I 74). Additionally, the defense argued
5.

that there was no evidence that the shooter possessed a specific intent to
kill. (JT-I 141).
On direct appeal, appellate counsel raised two claims of error. Only one
is of concern here, which are as follows:
II*
THE TRIAL COURT MISCORED OV-6 AT FIFTY POINTS, WHERE THE
RECORD FAILS TO DISCLOSE ANY PREMEDITATED INTENT TO KILL.
The facts leading to Holden's conviction and sentence were partially
surmarized by state appellate attorney in Holden's brief. The Court of Appeals
upheld his conviction and sentences on March 21, 2013. People v. Holden,
unpublished opinion per curiam. (Docket No. 308164). (Appendix D).
The Michigan Supreme Court in a decision dated July 30, 2013, No. 494
Mich 885, denied Holden's application for leave to appeal, stating they were
not persuaded that the questions presented should be reviewed by the Court.
(Appendix C).
Holden then filed a petition for habeas corpus in the United States
District Court. Shortly thereafter the petition was filed, Holden, also asked
the District Court to hold the petition in abeyance in order to permit him to
return to the state courts and initiate post-conviction proceedings there, in
order to exhaust additional ineffective assistance of counsel claims that were
not raised in his direct appeal. The District Court granted Holden's motion to
hold the case in abeyance. (Dkt. //12, Pg. ID 515).
During postconviction remedies, Holden raised several claims in his Post
Conviction Motion for Relief from Judgment, Only two claims are relevant for
this Court's Certiorari review:
6.

III.
THE TRIAL COURT FAILURE TO ADDRESS THE QUESTION OF WHETHER
THERE WAS A DENIAL OF RIGHT TO CHOICE OF COUNSEL AND THAT
COUNSEL WAS INEFFECTIVE FOR FAILURE TO RECUSE HIMSELF AFTER
KNOWLEDGE THAT COUNSEL HAD BEEN RETAINED FOR TRIAL. U.S.
CONST. AMS VI, XIV.
IV,
APPELLATE COUNSEL FAILURE TO RAISE SIGNIFICANT AND OBVIOUS
TRIAL COUNSEL'S DEFICIENT PERFORMANCE IN CONTEXT OF
NONDISCLOSURE OF FAVORABLE PLEA OFFER WITHOUT THE
DEFENDANT'S CONSENT CONTRARY TO THE HOLDINGS IN LAFLER v.
COOPER, 132 S.CT 1376 (2012) AND MISSOURI v. FRY, 132 S.CT
1399 (2012).
The trial court denied Relief from Judgment on March 25, 2015. (Appendix
G).
The Michigan Court of Appeals denied leave to appeal on July 6, 2016.
(Appendix F).
On January 31, 2017, the Michigan Supreme Court denied leave to appeal
Post Conviction Relief from Judgment in a standard order. (Appendix G).
On February 8, 2017, Holden filed an amended habeas petition and a motion
to re-open the case, The court granted Holden's motion to re-open this case
and order the Clerk of the Court to serve the amended petition on the state.
In the same order, the Court directed the state to file a responsive pleading.
The United States District Court denied habeas corpus on November A, 2019
in (Docket No. 14-13701). (Appendix B).
The United States Court of Appeals for the Sixth Circuit denied habeas
relief and certificate of appealability on June 2 , 2020 in (Docket No. 192360). (Appendix A).
As indicated herein, our analysis is guided primarily on two recent
Supreme Court rulings, and presented claims of "cause" for "ineffective
assistance of appellate counsel's failure to raise trial counsel's failure to
7.

disclose a favorable plea under both Strickland v. Washington and liafler v.
Cooper. The Sixth Circuit Court of Appeals unreasonably denied habeas relief
claiming "Holden's claim that appellate counsel was ineffective for failing to
present his ineffective assistance of trial counsel claims on appeal lacks
merit because, as discussed above, those underlying claims are meritless.
Appellate counsel is not ineffective for failing to raise meritless issues."
(Appendix A at 10).
In Strickland, the state courts determined that defense counsel's
performance was not deficient in a constitutional sense was not reasonable.
Each case presented its own unique set of facts and each resulted in a
different outcome. But both rulings involved application of the same
substantive law and focused scrutiny on the reasonableness of the state court's
adjudication of the ineffective assistance claim.
Therefore, since claims seven are interrelated as cause to claim 3 and 4,
here they are consolidated to give the Court a better understanding of the
arguments resented. Holden has demonstrated "prejudice" by showing that his
sentence is 16 to 20 years more severe than it would have been absent the
undisclosed plea bargain appellate counsel failure to raise claim.
Based on the above stated overview, the Sixth Circuit unreasonally denied
Holden's habeas relief on June 2, 2020, therefore, the petition for certiorari
is warranted to correct the Sixth Circuit Court of Appeals split from Supreme
Court precedent.

8.

II.
A UNITED STATES COURT OF APPEALS HAS DECIDED AN IMPORTANT
QUESTION OF FEDERAL LAW THAT CONFLICTS WITH RELEVANT
DECISIONS OF THIS COURT, WHERE THE TRIAL! COURT MISCORED OV6 AT FIFTY POINTS, WHERE THE RECORD FAILS TO DISCLOSE ANY
PREMEDITATED INTENT TO KILL.
Sumrorv of Arourent
Holdsn properly raised this claim on direct appeal based on sentencing
(Offense Variable 5 at 50 points), and stands on the pleadings and on that part
of the record which does exist. Further state that any short fall of the
record is perfect reasoning for expansion of the record. The district court
clearly erred in their decision making process.
As Holden stated in his original direct appeal, under the Michigan and
United States Constitutions, Holden have a due process right to be sentenced on
the basis of accurate information and in accordance with the law. Townsend v.
Burke. 334 US 735; 68 S.Ct 1252; 92 L.Ed.2d 1690 (1948).
Hence, OV-6 must be scored "consistent with a jury verdict unless the
judge has information that was not presented to the jury." MQi 777.36(2)(a). A
sentencing court may score fifty points for this offense variable if the
offender premeditated a killing. Mich. Comp. Llaws § 777.35(1)(a).
In the case at bar, the jury found Holden guilty of assault with intent to
murder ("AWIM"). That offense requires proof of a specific intent to kill,
whether or not premeditated, The trial court chose to impose the 50-point
score on its belief that Holden said something like, "I'm coming back to get
you, only to return a short tine with a gun." (ST 8). This belief is not
supported by the record.
The district court found the state trial court scored fifty points for
offense variable six ["because it thought that Holden premeditated his crimes
based on the trial court's conclusion that, prior to the shooting, Holden told
9.

Mght, ["I'm coining back to get you."] (ECF No. 11-7, PageID.372.)
The district court found Holden's claim has no merit because a trial
court's error "in applying the state sentencing guidelines raises an issue of
state law only." (Appendix B at 14).
Further claiming a sentence violates due process of 1cm if the trial court
relied on extensively and materially false information that the defendant had
no opportunity to correct through counsel. Townsend v. Burke. 334 U.S. 736, 741
(1948). To obtain relief, Holden must show that his sentence was "founded at
least in part upon misinformation of constitutional magnitude." United States
v. Tucker. 404 U.S. 443, 447 (1972). (Appendix B at 14-15).
The constitutional erroneous scoring of OV-S increased Holden's total
score from 65 points to 90 points. (PSR 11). This error had the effect of
inflating the guidelines range from 171-570 months to 225-750 months or life.
MOJ 777.62. Because the error in scoring the guidelines violated Holden's
state and federal due process rights to be sentenced accurately and
consistently with the law, he is entitled to be resentenced with the correct
range. Francisco. 474 Mich at 89-92; AU
The district court had to admit although there was no testimony at trial
that Holden threatened to return to Dwight's home and "get him," Dwight
testified at the preliminary examination that, when he looked out his front
door and saw Holden, Holden informed him that he was coming back to "get"
Dwight. (ECF No. 11-2, PageID.151.) Dwight also testified at the preliminary
examination that on the day of the shooting, he and Holden did not begin
fighting until after Holden said that he was going to "get" him. (Id. at 15152.) (Appendix B at 15).
The Sixth Circuit Court of Appeals found the district court concluded that
Holden's claim was not cognizable in a federal habeas corpus proceeding because
10.

it involved a state-la* issue and that the trial court's finding of
premeditation was not based on any "materially false information or
misinformation of constitutional magnitude." The district court pointed to the
victims testimony at the preliminary examination that Holden stated that he
would be back to "get" the victim and trial testimony that, after Holden shot
at the victim's house, he fired two more times, hitting the victim, after the
victim "moved in front of a window." (Appendix A at 5).
The Sixth Circuit Court of Appeals then claim, a sentence violates due
process if it is based on "extensively and materially false" information that
the defendant "had no opportunity to correct." Townsend v. Burke. 334 U.S. 735,
741 (1948); see Stewart v. Erwin. 503 F.3d 488, 495 (6th Cir. 2007). Holden
did not identify any materially false information on which the trial court
relied. Instead, he merely disagreed with the factual findings and inferences
mode by the trial court from the evidence presented at the preliminary
examination and trial. Holden's disagreement with the trial court's view of
the evidence does not establish that the trial court based its sentencing
decision on materially false information. Townsend. 334 U.S. at 741. Moreover,
Holden did not show that he lacked an opportunity to challenge any incorrect
information at sentencing, In fact, Holden objected to the trial court's
ruling on OV six at sentencing. (Appendix A at 6).
REASONS FOR GRANTING THE WRIT
On January 28 , 2016 the United States District Court granted Holden a Stay
pending Post Conviction Relief from Judgement remedies. Holden v. Winn. 2016
U.S. Dist. liEXIS 9998 (E.D. Mich, Jan. 28, 2016). This Court should review
Holden's constitutional challenge to the Guidelines' application in this case
because the trial court engaged in judicial fact-finding that increased the
11.

floor of the range of permissible sentence in violation of the rule of Allevne
v. United States. 133 S.Ct 2151 (2015), where in all actuality, Holden contends
that his sentencing violates the Sixth and Fourteenth Amendments to the United
States Constitution because the trial court engaged in judicial fact-finding
that increased the floor of the range of permissible sentence in violation of
the rule of Allevne v. United States. 133 S.Ct 2151 (2015); U.S. Const. Amend
VI s XIV. Here, the trial court scored 50 points for Offense Variable 6 "is
the offender's intent to kill or injure another individual." Mich. Comp, licws §
777.35(1). A sentencing court may score fifty points for this offense variable
if the offender premeditated a killing. Mich. Comp, liaws § 777.36(1)(a). The
trial court scored fifty points for offense variable six because it thought
that Holden had premeditated his crimes based on the trial court's conclusion
that, prior to the shooting, Holden told Dwight, "I'm coming back to get you."
(ECF No. 11-7, PageID.372.) is judicial fact-finding.
In Allevne. the defendant was convicted by a jury of offenses including
robbery affecting interstate commerce. 18 USC 1951(a). The jury indicated on
the verdict form that the defendant "(ulsed or carried a firearm during and in
relation to a crime of violence," but made no indication the defendant had
"brandished" the firearm. The penalty for the offense was 5 years of
irrprisonment, but was elevated to 7 years where a defendant had brandished a
firearm. Because there was no jury finding on this point, the judge made the
finding and sentenced the defendant with the elevated minimum. Id. at 21552156. The Allevne Court noted Aoorendi only concerned statutory maximums, and
that Harris had declined to extend Apprendi to statutory minimums. The Allevne
Court agreed "Harris was wrongly decided and that it cannot be reconciled with
our reasoning in Apprendi." Id at 2158. The Court concluded "Just as the
maximum of marks the outer boundary of the range, so seven years marks its
12.

floor. And because the legally prescribed range is the penalty affixed to the
crime, infro, this page, it follows that a fact increasing either end of the
range produces a new penalty and constitutes an ingredient of the offense/' Id
at 2160 (emphasis in original, internal citation omitted). Alleyne establishes
the rule that judges may not find facts which increase the floor of permissible
sentences.
In the case at bar, the Sixth Circuit Court of Appeals unreasonably claim
"Reasonable jurists could not disagree with the district court's determination
that Holden's second ground for relief did not warrant habeas relief. See
Miller-El. 537 U.S. at 327. First, federal habeas corpus is unavailable for
Holden's sentencing claim to the extent that it was based on an alleged
violation or perceived error of state law. (Appendix A at 6).
Basically, what the Sixth Circuit Court of Appeals are claiming is, it's
okay for Judges to to have discretion to find facts which influence judicial
discretion within the range of permissible sentences unauthorized by the jury
verdict or adnission of a defendant. However, the Sixth and Fourteenth
Amendment constrain judges from finding facts which increase either the floor*
or the ceiling of the range of permissible sentences, Here, the trial court's
scoring of 50 points for this offense variable if the offender premeditated a
killing. Mich. Comp, liaws § 777.36(1)(a), The trial court scored fifty points
for offense variable six because "it thought that Holden had premeditated his
crimes based on the trial court's conclusion that, prior to the shooting,
Holden told Dwight, "I'm coming back to get you." (ECF No. 11-7, PageID.372).
These findings and their influence on the sentencing guideline range increased
the floor of the permissible sentence and thus invaded the province of the jury
as protected by the Sixth and Fourteenth Amendments. For this reason, Mr.
Holden is entitled to resentencing.
13.

The Sixth Amendment to the United States Constitution provides, in port,
that criminal trials shall be "by an impartial jury." The Fourteenth Amendment
to the United States Constitution, in part, " • • • nor shall any State deprive any
person of life, liberty, or property, without due process of law • • • • " The
United States Supreme Court has held that, taken together, "these rights
indisputably entitle a criminal defendant to a jury determination that [he] is
guilty of every element of the crime with which he is charged, beyond a
reasonable doubt." Aporendi v. New Jersey. 530 U.S. 465, 477 ( 2000)(internal
quotation omitted). Regarding sentencing, the power reserved by the jury to
determine every element of the crime means that judge's role "is constrained at
its outer limits by the facts alleged in the indictment and found by the jury."
Id. ot 482 n. 10.
Hence, in Cunningham v. California. 543 U.S. 220, 233-35 (2005), the
Supreme Court similarly concluded that a state law departure provision did not
convert an otherwise presumptive sentence into a discretionary sentence to
which the Aporendi rile did not apply.
Holden has identified materially false "premeditation information" on
which the trial court relied on of constitutional magnitude of the Sixth and
Fourteenth Amendment of the United States Constitution.
In short, Michigan's departure value under MCI 769.34(3) does not
preclude an Allevne challenge, And Michigan sentencing guidelines range
constitute the "floor" for Allevne purpose.

14.

wmmm
III.

had been

RETAINED FOR TRIAL!. US CONST. AMS VI, XIV.

Suimarv of Argument
In the case at bar, the record reflects that Mr. Holden had been
represented by court-appointed attorney: Donald Cook (P30555), of 3200 E. 12
Mile Road, Ste. 108, Warran, Mich 48902. Attorney Cook acknowledged at
Holden's sentencing that he had been appointed not retained. (ST at *3).
Holden's contends and asserts in his putative affidavit they had been trying to
retain counsel and that Judge Berry denied Holden's request. This denial
happened while the case was assigned to Judge Berry's courtroom under her trial
scheduling docket. The request for counsel of choice is buried in the numerous
adjournments in Judge Berry's court. See Docket Entries as Exhibit A and
Register of Actions as Exhibit B. Holden's case had been reset numerous times
in October 2011, and a scheduling error on December 6, 2011. On December 7,
2011, Holden's case was re-assigned to Judge Jones A, Callahan.
Attorney Cook did not address this issue of Holden's constitutional right
to choice of counsel and effective assistance of counsel; nor did Cook move for
an adjournment for Holden to properly pursue his right to counsel with his
counsel of choice claim.
The trial court's opinion of denial is merely a recital of case law which
does not explain why relief should not be granted under MCR 6.598(D).
Therefore in the interest of justice, Holden moves this Court to conduct a de
novo review of his Sixth and Fourteenth Amendnent constitutional claims.
15.

The Sixth Circuit Court of Appeals found the district court ruled Holden's
third claim through sixth grounds for relief asserted ineffective assistance of
trial counsel. The district court concluded that these grounds for relief were
procedurally defaulted.
Petitioner states the Sixth Circuit Court of Appeals has decided an
important federal question in a way that conflicts with relevant decisions of
this Court, and sanctioned such a departure by a lower court, as to call for an
exercise of this Court's supervisory power.
The right to select counsel of one's choice, by contrast, has never been
derived from the Sixth Amendment's purpose of ensuring a fair trial. It has
been regarded as the root meaning of the constitutional guarantee. See Wheat,
485 U.S at 159; 108 S.Ct 1692; 100 Li.Ed.2d 140; Andersen v. Treat. 172 U.S.
24; 19 S.Ct 67; 43 li.Ed. 351 (1898). See generally W. Beaney, The Right to
• 9

Counsel in American Courts 18-24, 27-33 (1955). Powell. supra, at 53 S.Ct 55;

77 li.Ed. 158. Where the right to be assisted by counsel of one's choice is
wrongly denied, therefore, it is unnecessary to conduct an ineffectiveness or
prejudice inquiry to establish a Sixth Amendment violation.
Holden's Sixth and Fourteenth Amendment rights were violated over the
course of his trial and appeal of right. This Court should remand this action
to the Sixth Circuit Court of Appeals with instructions to grant Mr. Holden's
Writ of Habeas Corpus where: "Deprivation of the right is "complete" when the
defendant is erroneously prevented from being represented by the lawyer he
wants, regardless of the quality of the representation he received. To argue
otherwise is to confuse the right to counsel of choice—which is the right to a
particular lawyer regardless of comparative effectiveness—with the right to
effective counsel—which imposes a baseline requirement of competence on
whatever lawyer is chosen or appointed." (Enphasis added).
16.

The United States Court of Appeals for the Sixth Circuit decision is in
conflict with controlling authority of the United States Supreme Court over a
routine denial of counsel of Holden's choice was allowed to stand, even where
appellate counsel's deficiency performance to raise Holden's claim that counsel
rendered ineffective assistance of counsel during his appeal of right was
demonstrated."
The trial court failure to address the question of whether there was a
denial of right to choice of counsel and that counsel was ineffective for
failure to recuse himself after acknowledge that counsel had been retained for
trial.
This right encompassed Holden's right to effective assistance of counsel.
StriGkland v. Washington. 465 US 668, 686 (1984), and the right to choice of
counsel. Powell v. Alabama, 287 US 45, 53 (1932), which is at issue in this
case.
The Sixth Circuit Court of Appeals properly found as cause to excuse the
procedural default of his third through sixth grounds for relief, Holden
asserted, in his seventh ground for relief, that appellate counsel was
ineffective for failing to present the ineffective assistance of trial counsel
claims asserted in his third through sixth grounds on direct appeal. Then
concluded "an attorney is not required to raise every non-frivolous issue on
appeal." Caver v. Straub. 349 F.3d 340, 348 ( 6th Cir. 2003). Indeed,
"'winnowing out weaker arguments on appeal and focusing on' those more likely
to prevail, far from being evidence of incompetence, is the hallmark of
effective appellate advocacy." Smith v. Hurray. 477 U.S. 527, 536
(1986)(quoting Jones v. Barnes. 463 U.S. 745, 751-52 (1983)). Where, as here,
appellate counsel "presents one argument on appeal rather than another ... the
petitioner must demonstrate that the issue not presented 'was clearly stronger
17.

than issues that counsel did present"' to establish ineffective assistance of
counsel. Caver. 349 F.3d at 348 (quoting Smith v. Robbins. 528 U.S. 259, 288
(2000)). (Appendix A at 7-8).
Hence, without doubt the issues that were presented in Holden's Motion for
Relief from Judgment were not only stronger, but they were also of
constitutional magnitude, where appellate counsel only raise two state law
claims (1) "404b inadmissible evidence; and (2) Holden's OV score was
wrongfully calculated" which the district court claimed were not cognizable in
habeas corpus. The district court rejected Holden's second ground for relief.
The district court concluded that Holden's claim was not cognizable in a
federal habeas corpus proceeding because it involved a state-law issue and that
the trial court's finding of premeditation was not based on any "materially
false information or misinformation of constitutional magnitude." The district
court pointed to the victim's testimony at the preliminary examination that
Holden stated that he would be back to "get" the victim and trial testimony
that, after Holden shot at the victim's house, he fired two more times, hitting
the victim, after the victim "moved in front of a window." (Appendix A at 5).
Surely, if appellate counsel presented two state law claims, neighter of
which were cognizance of habeas corpus, it is obvious that the claims presented
were not stronger than Holden's federalized claims in his habeas petition at
claims 3, 4 and 7 where Holden demonstrated "appellate counsel's deficient
performance on appeal of right for "good cause" for not presenting his claims
on direct appeal.
The Sixth Circuit unreasonably claim "Reasonable jurists could not disagree
with the district court's determination that Holden's second ground for relief
did not warrant habeas corpus relief. See Miller-El. 537 U.S. at 327. Federal
habeas corpus relief is unavailable for Holden's sentencing claim to the extent
18.

that it was based on an alleged violation or perceived error of state law." See
Wilson v. Corcoran. 552 U.S. 1, 5 (2010)(per curiam); Howard v. White. 76
F.App'x 52, 53 (6th Cir. 2003). (Appendix A at 6).
The United States Supreme Court expounded upon a defendant's right to
counsel of choice in United States v. Gonzales-Uopez. 548 U.S. 140 ( 2006). The
Court stated: "[the Sixth Amendment] comrands ... that the accused be defended
by the counsel he believes to be best." Id;, at 146. The Court continued
"Deprivation of the right is 'complete' when the defendant is erroneously
prevented from being represented by the lawyer he wants • • • " Id. at 148
(emphasis added). It is not necessary that a defendant show prejudice; it is
enough that a defendant merely shows that a deprivation occurred. Id. at 150.
Hence, Holden was denied the counsel of his choice; (Attorney Patricia
Slomski), petitioner further contends that Attorney Cook was also aware of the
request to retain new counsel, and the Judge denied the motion due to Ms.
Slomski, had a trial date already scheduled in a different court room. The
trial court fail to adjudicate this claim in Holden's Motion for Relief from
Judgment. (See MRJ at 2-3).
Holden was denied the counsel of his choice: Attorney Patricia Slomski.
Holden further contends that attorney Cook was also privy to this request to
obtain a retained counsel and the Judge's denial, since attorney Slomski had a
trial scheduled on the same date scheduled as Holden's trial. Judge Berry
denied the request since she ruled that she would not change the trial schedule
date. Per the record not only was the trial date changed, but also the
presiding judge. See Note p. 1 Register of Actions - Exhibit B.
A United States court of appeals has entered a decision that sanctioned
such a departure by a lower court, as to call for an exercise of this Court's
supervisory power.
19.

IV.
THE SIXTH CIRCUIT DECISION IS OBJECTIVELY UNREASONABLE,
CONFLICTS WITH STRICKLAND CAUSE AND PREJUDICE TWO-PART
INQUIRY, WHERE APPELLATE COUNSEL FAILURE TO RAISE
INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL'S NONDISCLOSURE OF
FAVORABLE PLEA OFFER WITHOUT THE DEFENDANT'S CONSENT,
CONTRARY TO THE HOLDINGS IN LAWLER v. COOPER, 132 S.CT 1376
(2012) AND MISSOURI v. FRY, 132 S.CT 1399 ( 2012).
Sunrorv of Afgunent
In the case at bar, Mr. Holden received an additional 16 to 20 years based
on undisclosed plea bargain involves one or more questions of exceptional
inportance, for example (trial counsel was ineffective in failing to
coimunicate favorable plea offer, resulting in Holden's failure to accept the
plea offer articulated by the trial court and the prosecution at the start of
trial presents a question of exceptional inportance if it involves an issue on
which the panel decision conflicts with the authoritative decisions of Supreme
Court of the United States controlling precedent that have addressed the issue)
e.g., 104 S.Ct 2064.
The Michigan Court of Appeals decision was unreasonable where Mr. Holden
demonstrated "good cause" and "actual prejudice" in claim seventh based on
ineffective assistance of appellate counsel, for failure to raise the fourth
claim, if not, is perfect reasoning for expansion of the record establishing
usual criteria to this Court's certiorari consideration.
The United States Court of Appeals for the Sixth Circuit correctly
determined "Holden's third through sixth grounds for relief asserted
ineffective assistance of counsel." The district court concluded that these
grounds for relief were procedurally defaulted. Further finding Holden
presented these claims to the post-conviction trial court in his motion for
relief from judgment. The state trial court rejected these claims because
Holden did not raise them on direct appeal and failed to show good cause for
20.

failing to do so and actual prejudice. The Michigan Court of Appeals denied
leave to appeal, and the Michigan Suprere Court denied leave to appeal for
failure "to meet the burden of establishing entitlement to relief under
[Michigan Court Rule] 6.508(D)." People v. Holden, 889 N.W.2d 265 (Mich.
2017)(mem.). (Appendix A at 6).
The Sixth Amendment guarantees a defendant the right to effective
assistance of appellate counsel on first appeal by right. U.S. Const, Am VI;
Const 1963 art 1, § 20; Evitts v. llucev, 469 U.S. 387, 396-97 (1985); Beasley
v. United States. 491 F.2d 687 (CA 6 1 974). Constitutionally ineffective
assistance of counsel is "cause" for a state procedural default, Murray v.
Carrier. 477 U.S. 478 , 488 (1986), including in the 6.500 motion context.
People v. Reed. 449 Mich 375, 378 (1995).
Strickland v. Washington. 466 U.S. 668, 687-88; 694 S.Ct 2052; 2064-74; 80
ti.Ed.2d 674 (1984) established the standard for ineffective assistance of trial
counsel, it can be used as a basis for establishing a standard for effective
assistance of appellate counsel. Accord Brown v. Foltz. 763 F.2d 191, 195 (6th
Cir. 1985)(Coutie, J • • dissenting). Under Strickland, ineffective assistance
of counsel will be found when "counsel's conduct so undermined the proper
functioning of the adversarial process that the trial cannot be relied on as
having produced a just result." Strickland. 104 S.Ct at 2064. The Strickland
standard envisions a two-prong analysis. First, counsel's performance must
have been deficient, and second, the deficiency must have prejudiced the
defense. Id. Had appellate counsel failed to raise a clearly stronger issue,
the failure could be viewed as deficient performance. If an issue which was
not raised may have resulted in a reversal of the conviction, or an order for a
new trial, the failure was prejudice.
While petitioner's case was pending in the Sixth Circuit Court of Appeals
21.

People v. Walker. 2020 Mich. UEXIS 886 was decided on May 8 , 2020. "Walker
held that Uafler v. Cooper did not create a new rule [of constitutional law]
and that it therefore applies retroactively to this case." People v. Walker (On
Rerand), 328 Mich App 429, 449; 938 NW2d 31 (2019).
Thus, clearly any federalized claims are stronger than the two state law
claims: (1) "improper use of 404B evidence," and (2) "sentencing issue on 0V6;"
where the Sixth Circuit identified several non-exclusive factors to be
considered in determining whether a defendant was denied effective assistance
of appellate counsel, The decision to omit the Uafler issue was an
unreasonable one that only an incompetent attorney would adopt.
Holden has demonstrated that trial counsel's nondisclosure of a favorable
plea offer from the prosecution, in order to establish that he was prejudiced
by counsel's deficiency, and but for the constitutional error, there is a
reasonable probability the plea offer would have been presented to the court,
i.e., that Holden would have accepted the plea and the prosecution would not
have withdrawn it in light of intervening circumstances. Mr. Holden has also
shown that the court would have accepted its terms, and the conviction or
sentence, or both, would have been reduced from 20 to 30 years, to 4 to 10
years is clearly less severe under Assault with With Intent to do Great Bodily
Harm less than murder judgement and sentence than was imposed. Uafler v.
Cooper. 132 S.Ct at 1385.
Holden has demonstrated the case meets the usual criteria for certiorari
review consideration, during the final conference the prosecutor Ms. Graham
(prosecutor) offered to drop counts 2*3 (underlying charge for assault with
intent to murder), if Holden plead to counts 1 & 4 (assault with intent less
than murder, and felony firearm). No deal was accepted at that time.
The court was adjourned so that the two sides could come to an agreement
22.

on a better deal. The record supports that counsel failed to disclose to
Holden the other plea offer, and counsel rejected it without consent of Holden.
See letter from appellate counsel admitting that the prosecutor offered Assault
With Intent to do Great Bodily Harm Uess than Murder, plus Felony firearm, 2nd
Offense, if Holden pleaded guilty. Trial counsel never came back with a better
deal to Holden of any Uess than Great Bodily Harm Uess than Murder plea bargain
as counsel admits. (Exhibit £).
In 1984, the Supreme Court decided United States v. Cronic, 466 U.S. 648;
104 S.Ct 2039; 80 U.Ed.2d 557 (1984), a case of special interest for our
inquiry. The opinion in this case included a strong statement that no
prejudice need be shown where counsel was absent at a critical stage of a
criminal proceeding. Two prefatory comments are useful here because we make
our extended examination of the decision, First, this case was about a
critical stage, and did involve an absent lawyer. Second, Cronic was handed
down the same day as Strickland v. Washington. 466 U.S. 668; 104 S.Ct 2052; 80
U.Ed.2d 674 (1984). From time to time, this has caused confusion. Strickland
set forth the Court's two-part inquiry into ineffective assistance of counsel,
requiring that a petitioner show both inefffectiveness and prejudice. Cronic
specified circumstances of alleged ineffective assistance of counsel understood
by the Court to require no showing of prejudice, Chief among these was the
absence of counsel at a critical stage. Van v. Jones. 475 F.3d 292, 305 ( 6th
Cir. 2007). Id.
Holden has demonstrated the prejudice necessary under both Strickland and
Cronic bv alleging that counsel's deficient performance prejudiced his defense,
absence the undisclosed plea offer, the results of the sentencing proceedings
would have been different by at least 16 to 20 years shorter, on the lesser
included offense. This Court's review is warranted, based upon a serious Sixth
23.

Amendment Constitutional error that Split with the United States Supreme Court
and Sixth Circuit Court of Appeals own decisions on MCR 6.508(D) procedural
default warranting issuance of the writ of certiorari.
Sixth Circuit are Split regarding Scope of Good Cause Requirement
The Sixth Circuit Court of Appeals June 2, 2020 decision conflicts due to
a split of authority among the federal circuit own published decisions on MCR
6.508(D) procedural default.
In Matthews v. Abramoivts. 92 F.Supp.2d 615, at 631 (E.D.Mich. 2000),
"petitioner contends that any procedural default should be excused by the
ineffective assistance of appellate counsel. Ineffective assistance of counsel
may constitute cause for procedural default. Murray v. Currier, 477 U.S. 478,
488; 106 S.Ct 2639; 91 L.Ed.2d 397 (1986); Ratlif v. United States. 999 F.2d
1023, 1025 ( 6th Cir. 1993)(ineffective assistance of counsel constitutes cause
under cause and prejudice standard for reviewing claims first presented in
post-conviction proceedings). As discussed more fully below, Petitioner has
shown that appellate counsel was ineffective for failing to present his habeas
claims, particularly those concerning the ineffective assistance of trial
counsel, on direct appeal. Petitioner has thus established cause to excuse the
failure to raise his habeas claims on direct appeal." See also Criminal liaw Key
641.13(7). Defendant may establish ineffective assistance of appellate counsel
by showing that counsel ignored significant and obvious issue while pursuing
weaker claims. U.S.C.A. Const. Amend. 6.
The Sixth Circuit Court of Appeals found: "To determine whether a brief,
unexplained order citing MCR 6.508(D) is based on a procedural default or is
instead a merits ruling, this Court reviews the last reasoned state court
opinion to determine the basis for the state courts rejection of" a particular
24.

claim. Guilmette v. Hawes. 624 F.3d 286, 291 (6th Cir. 2010(en banc), Under
this procedure, this court presumes that "[wlhere there has been one reasoned
state judgment rejecting a federal claim, later unexplained orders upholding
that judgment or rejecting the same claim rest upon the same ground." Thus,
this court presumes that the state appellate courts-citing only Rule 6.508(D)-invoked the procedural bar as well. See Guilmette, 624 F.3d at 291-92. This
court has recognized that enforcement of Rule 6.508(D)(3) constitutes an
independent and adeguate state ground sufficient for procedural default. Amos,
638 F.3d at 733. (Appendix A at 6-7).
Because the order from the lower court in this case citing Rule 6.508(D)
are anbiguous as to whether they refer to procedural default or denial of
relief on the merits, the orders are unexplained, Michigan practice confirms
that brief orders citing Rule 6.508(D) in sore case refer to a petitioner's
failure to meet his burden on the merits. The procedural-default rule stated
by Rule 6.508(D)(3) applies only to claims that could have been brought on
direct appeal, and thus—by necessity-it does not apply to claims of
ineffective assistance of appellate counsel. In People v. Allen, a Michigan
petitioner seeking post-conviction relief argued that the judge in his criminal
trial had erroneously excluded evidence and that he had been denied the
effective assistance of appellate counsel. No. 249788, 2005 WU 1106498, at *1
(Mich. Ct. App. May 10, 2005)(unpublished table decision). Because the
petitioner in Allen could not have raised his claim of ineffective assistance
of appellate counsel in an earlier proceeding, the Michigan Supreme Court's
form order necessarily rejected that claim on the merits. Further, the present
case involved the same situation. Holden's petition for post-conviction review
in state court included both trial and appellate ineffective-assistance claims.
The form orders used by the state intermediate and supreme courts thus
25.

necessarily rejected claims 3 to 5 of Holden's claims on the merits. This fact
refutes the Sixth Circuit Court of Appeals unreasonable argument that such form
orders can only, or do only, refer to procedural default. See e.g Guilmette
v. Howes. No. 2256, October 21, 2010 (Recommended For Full Text Publication).
The circuits own published decisions split concerning the proper scope of
appellate counsel as cause for failure to raise an adequate and obvious
undisclosed plea offer articulated by the trial court and the prosecution at
the start of trial, presents a question of exceptional importance, if it
involves an issue on which the panel decisions conflict with the authoritative
decisions of other United States Court of Appeals which have addressed the
issue. For example, the Sixth Circuit correctly agreed with the test of
Strickland prejudice in the context of a rejected plea bargain in liafler. The
Sixth Circuit unreasonably state the claim of ineffective assistance of
appellate counsel is procedural barred. See Abela v. Martin. 380 F.3d 915, 92224 (6th Cir. 2004), for the proposition that some orders citing Rule 5.508(D)
do not,invoke a procedural bar.
In the case at bar, the Sixth Circuit Court of Appeals held "reasonable
jurists would not debate the district court's rejection of Holden's ineffective
assistance of appellate counsel claim." See Miller-El. 537 U.S. at 327.
Holden's claim that appellate counsel was ineffective for failing to present
his ineffective assistance of trial counsel claims on appeal lacks merit
because, as discussed above, those underlying claims are meritless. Appellate
counsel is not ineffective for failing to raise meritless issues. Shaneberger
v. Jones. 615 F.3d 448, 452 (6th Cir. 2010). (Appendix A at 10).
Criminal liaw Key 641.13(7) Although right to counsel does not require
appellate attorney to raise every non-frivolous issue on appeal, attorney who
has presented strong but unsuccessful claims on appeal may nonetheless deliver
• 9

26.

deficient performance and prejudice defendant by omitting issue obvious from
trial record which would have resulted in reversal on appeal. U.S.C.A. Const.
Amend. 6.
MR. COOK: I will go and see if they have a better offer.
THE COURT: Sure.
MR. COOK: We've gotten past this point.
THE COURT: All right, then if not, .if there's not a resolution, we'll see
everybody back here at the date and time set for trial, which is December 8th.
Thank you.
(FC at 10-11).
The Sixth Circuit Court of Appeals decision to reject this claim is
objectively unreasonable in claiming "the record did not support Holden's claim
that his trial attorney rejected a plea offer without consulting him. Holden's
evidence of the plea offer—a letter from Holden's trial counsel to his
appellate counsel-states that Holden rejected the offer, contrary to his
attorney's and his family's advice." (Appendix A at 8)(Emphasis added).
The record supports trial counsel declined a plea offer without Holden's
consent, and counsel did not attend to this matter before trial. Matter of
fact, counsel did not secure any numbers to which the defendant could make a
rational decision to accept or decline a plea. This Court can take notice that
defendant's PTV's were extremely high, which was the bases for calculating any
plea determination. The PRV's on the AWIM were assessed at 77 points and PRV
Level F. Succinctly, the OV's total was 90 at OV Level V. Defendant's ending
Guideline Scoring was 225 to 750 months under the Habitual 4th.
Thus, Holden has established prejudice is made out by the simple fact that
Holden received a more severe sentence as a result of the jury's verdict than
he would have received had he pled guilty.
27.

CONCLUSION
For the foregoing reasons, the petition for writ of certiorari should be
granted.
Respectfully submitted,
C

Date:

.....

28.

